                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

     Case Number: A08040015



           This case was opened under a proactive review of REU grants. A small amount of copied text1was
           identified, however, a further review indicates that the amount of text was de minimus and was a
           common description of a symposium being help later in the year. Based on our analysis, no hrther
           action was warranted. Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
